I IN THE SUPREME COURT OF UNITED STATES
FOSTER LEE TARVER,
’5

Appellant,
V. ;

ATTORNEY GENERAL
PENNSYLVANIA, et al,
Appellees
CERTIFICATE OF SERVICE
I,

FOSTER LEE TARVER, Petitioner, hereby aver that copies of the attached or enclosed:
Petition for certiorari

have bee mailed to below listed person(s):
Pa. Attorney General: Josh Shapiro, Strawberry Square: 1.6th Floor, Harrisburg, PA 17120; and
Dauphin County District Attorney Office; c/o Ryan H. Lysaght, Dauphin County Courthouse 2 Floor,
101 Market Street, Harrisburg, PA 17101 by First Class Mail, postage paid, on February 18, 2020, in
compliance with Federal Rules of Criminal Procedure rules and 28 U.S.C. § 1746.
Respectfully .submitted,
Foster Tarver
1621 Lincoln Ave, Apt. 206
Pittsburgh, PA 15206

RECEIVED
FEB 2 4 2021

aaigarifffflr

